No. 20-142
IN THE

Supreme Court Of The United States
Michael Skidmore, as Trustee for the Randy Craig Wolfe
Trust,
Petitioner,
v.
Led Zeppelin et al., and Warner/Chappell Music, Inc.,
Respondents

On Petition for a Writ of Certiorari to the United States
Court of Appeals for the Ninth Circuit
MOTION FOR LEAVE TO FILE AMICUS CURIAE
BRIEF AND BRIEF OF THE PULLMAN GROUP, LLC
AND STRUCTURED ASSET SALES, LLC AS AMICUS
CURIAE IN SUPPORT OF GRANTING THE PETITION
W. Michael Hensley
AlvaradoSmith
1 MacArthur Place, Suite 200
Santa Ana, CA 92707
(714) 852-6835
mhensley@alvaradosmith.com

Counsel for The Pullman
Group, LLC and Structured
Asset Sales, LLC
September 10, 2020

1
MOTION OF THE PULLMAN GROUP, LLC AND
STRUCTURED ASSET SALES, LLC FOR LEAVE
TO FILE A BRIEF AMICUS CURIAE IN SUPPORT
OF GRANTING THE PETITION
The Pullman Group, LLC and Structured
Asset Sales, LLC (“Amici”) hereby move, pursuant to
S. Ct. R. 37.2, for leave to file a brief amicus curiae in
support of the petition for a writ of certiorari to the
United States Court of Appeals for the Ninth Circuit.
Amici are filing this motion because they have been
unable to secure consent from Respondent. 1 The
proposed brief is attached.
As more fully explained in the Statement of
Interest of Amici Curiae beginning on page 1 of the
attached brief, amici are concerned that the Ninth
Circuit’s decision, if allowed to stand, will have
serious negative repercussions for amici and the
larger community of authors, artists and copyright
owners. The brief of amici will assist the Court in
determining whether to grant certiorari, because the
brief elaborates on why the Ninth Circuit’s ruling on
the so-called “deposit copy” issue erroneously limits
basic, long-standing principles of copyright law based
solely on administrative function of the United
States Copyright Office.
Just days after the erroneous Ninth Circuit
decision was issued in Skidmore, its conclusion
regarding the “deposit copy” issue was adopted by
1 On August 13, 2020, counsel for Amici contacted counsel for
Respondent, and asked whether Respondent would consent to
Amici filing a brief in support of the Petition for Certiorari. On
August 17, 2020, counsel for Respondent advised counsel for
Amici that Respondent would not so consent.

2
the United States District Court for the Southern
District of New York in Griffin v. Sheeran, 1:17-cv05221-LLS (S.D.N.Y.) in a manner that materially
restricts the ability of the plaintiffs in that case to
litigate their copyright infringement case. 2 Amicus
Structured Asset Sales, LLC has brought two cases
in the Southern District of New York based on the
same core allegations of infringement as are at issue
in the Griffin case. Structured Asset Sales, LLC v.
Sheeran, 1:18-cv-05839-LLS (SAS I); Structured
Asset Sales, LLC v. Sheeran, 1:20-cv-4329-RA (SAS
II).
At the heart of all three cases is the allegation
that the 1973 musical composition “Let’s Get it On” –
written by Marvin Gaye and Edward Townsend and
performed by Gaye – has been infringed by the 2014
release of “Thinking Out Loud,” written by Ed
Sheeran and Amy Wadge and performed by Sheeran.
The SAS II matter – in fact – was filed in partial
response to the Skidmore and Griffin “deposit copy”
decisions, and bases its claims of infringement not
only on the 1973 registrations for “Let’s Get it On,”
but also on an additional registration for that
composition secured in 2020, using the 1973 sound
recording of “Let’s Get it On” as its deposit copy.
The potential for adoption of the erroneous

Skidmore deposit copy holding in the two Structured
Asset Sales matters presents a direct threat to the
ability of amici to litigate their claims and protect
their financial interests as beneficial copyright
owners.

2

Griffin v. Sheeran, No. 1:17-cv-05221-LLS (S.D.N.Y. March 24,

2020) (ECF 121).

3

Accordingly,
respectftilly request that
the Court grant leave to file the attached brief as
amici curiae.

Respectfiilly submitted.
/

Attorney for kici Curiae น
The Pullman Group, LLC and
Structured Asset Sales, LLC

i
TABLE OF CONTENTS
MOTION OF THE PULLMAN GROUP, LLC AND
STRUCTURED ASSET SALES, LLC FOR LEAVE
TO FILE A BRIEF AMICUS CURIAE IN SUPPORT
OF GRANTING THE PETITION .............................. 1
TABLE OF CONTENTS .............................................. i
TABLE OF AUTHORITIES ...................................... iii
INTEREST OF AMICUS CURIAE ............................ 1
SUMMARY OF ARGUMENT .................................... 4
ARGUMENT ............................................................... 8
I. ........... THIS COURT SHOULD GRANT THE
PETITION FOR CERTIORARI TO HALT
THE GROWING INFLUENCE OF THE
NINTH CIRCUIT’S ERRONEOUS
INTERPRETATION OF THE “DEPOSIT
COPY” REQUIREMENTS ............................... 8
II. .DEPOSIT COPIES IDENTIFY – BUT ARE
NOT IDENTICAL TO – UNDERLYING
COPYRIGHTED WORKS .............................. 14
III. ..... SONGWRITERS DO NOT BEHAVE AS
THE NINTH CIRCUIT, RESPONSDENTS
AND THEIR AMICI SUGGEST .................... 17
IV. ...... THIS COURT SHOULD ALSO GRANT
THE PETITION IN ORDER TO ADDRESS
THE PROPER STANDARD FOR
COPYRIGHT INFRINGEMENT OF
MUSICAL COMPOSITIONS BASED ON THE
“SELECTION AND ARRANGEMENT” OF
ELEMENTS ................................................... 18

ii
CONCLUSION.......................................................... 22

iii
TABLE OF AUTHORITIES
Cases

Feist Publications, Inc. v. Rural Tel. Serv. Co., 499

U.S. 340 (1991) ................................................ 19, 20
Goldstein v. California, 412 U.S. 546 (1973) 5, 8, 9, 10

Harper & Row Publishers, Inc. v. Nation
Enterprises, 471 U.S. 539 (1985) .......................... 20
Swirsky v. Carey, 376 F.3d 841 (9th Cir. 2004), as
amended on denial of reh'g (Aug. 24, 2004) ... 20, 22
Three Boys Music Corp. v. Bolton, 212 F.3d 477 (9th

Cir. 2000) ......................................................... 21, 22
White-Smith Music Pub. Co. v. Apollo Co., 209 U.S. 1
(1908)) .................................................. 12, 13, 14, 15
Statutes
Copyright Act of 1909 ........................................passim
Copyright Act of 1976 ........................................passim
Other Authorities
1 M. Nimmer & D. Nimmer, Nimmer on Copyright §
2.05[A] (2017)..................................................passim
1 M. Nimmer & D. Nimmer, Nimmer on Copyright §
2.11.[D] (2017) ....................................................... 20
1 M. Nimmer & D. Nimmer, Nimmer on Copyright §
3.03 (2017).............................................................. 20
Brief of Amici Curiae 123 Songwriters, Musicians
and Producers, Along with NSAI and SONA (July
30, 2019) (Ninth Cir. Dkt. 118-2) .......................... 18
Compendium of Copyright Office Practices §
2.6.1.II.a (1st ed. 1967) .................................... 10, 11

iv
Copyright Office, “Circular 61: Copyright
Registration of Computer Programs” (Rev. Sept.
2017) ....................................................................... 17
Denicola, Copyright in Collections of Facts: A Theory
for the Protection of Nonfiction Literary Works, 81
Colum.L.Rev. 516 (1981) ....................................... 20

1
INTEREST OF AMICUS CURIAE 1
Structured Asset Sales, LLC (“SAS”) is a
Limited Liability Company, which invests in and
owns rights to thousands of songs and musical
compositions and is owned by David Pullman, based
in Los Angeles, California who is its Founder,
Chairman and CEO, as well as the Founder,
Chairman and CEO of The Pullman Group, LLC, the
creator of all Pullman Bonds, the first ever music,
entertainment and intellectual property including
copyright asset backed securitizations of any kind in
history including the world famous financial
landmark $55 million transaction rated single-A
level by multiple ratings agencies Pullman Bond for
David Bowie, and Pullman Bond series for the
Motown Hit Machine, Holland Dozier Holland, R & B
Royalty, Ashford & Simpson, The Godfather of Soul,
James Brown and The Isley Brothers, among others
backed by copyrights worth hundreds of millions of
dollars. See www.pullmanbonds.com.
SAS is a beneficial owner of one-third of all of
the copyright rights of the catalog of songwriter
Edward Townsend, including the musical
composition “Let’s Get it On.” “Let’s Get it On” was
written and produced by Townsend and Marvin Gaye
in 1973, registered internationally in 1973, and

1 No counsel for a party authored this brief in whole or in part,
and no such counsel or party made a monetary contribution
intended to fund the preparation or submission of this brief. No
person other than the Amici, or their counsel, made a monetary
contribution intended to fund its preparation or submission.
The parties have been given at least 10 days notice of Amici’s
intention to file this brief.

2
renewed with the United States Copyright Office in
2000.
SAS is the plaintiff in two cases currently
pending before the United States District Court for
the Southern District of New York, Structured Asset
Sales, LLC v. Sheeran, 1:18-cv-05839-LLS (SAS I);
Structured Asset Sales, LLC v. Sheeran, 1:20-cv4329-RA (SAS II). In those cases, SAS alleges that
Mr. Sheeran’s 2014 song, “Thinking Out Loud,”
infringes the copyright in the composition “Let’s Get
it On.” In SAS I, SAS’s copyright infringement
claims arise from the two registrations issued in
1973 for the “Let’s Get it On” composition, both of
which used “lead sheet” sheet music as their deposit
copies. The copyright infringement claims in SAS II
arise from the two 1973 registrations and a
registration secured in 2020 for the “Let’s Get it On”
composition, which used the 1973 sound recording of
the song as its deposit copy.
Cases – like SAS I and SAS II – involving
infringement of musical compositions that were
registered before the U.S. Copyright Office allowed
for the submission of sound recordings as deposit
copies for compositions are being are being affected,
and will continue to be affected by the Skidmore
ruling and by other courts that choose to follow
Skidmore. Similarly, the portions of the en banc
decision addressing copyright protection arising from
“selection and arrangement” of elements speak
directly to the arguments in many cases of nonliteral, but nevertheless actionable, copying of
musical compositions.

3

Amici have an interest in maintaining the

broad protection granted under the Copyright Act to
the copyrighted works they own and in which they
invest, including “Let’s Get it On.” They also have
an interest in preventing the spread of the rulings of
the Ninth Circuit in Skidmore from being upheld or
adopted by other Circuits.

4
SUMMARY OF ARGUMENT
The Copyright Act grants owners of musical
compositions a broad set of rights in connection with
the works they own, including the right to bring
actions against those who would infringe their rights
by copying, performing or distributing musical
compositions or recordings that are substantially
similar to, and thus infringing of, the registered
compositions.
Both the Copyright Act of 1976 (the “1976
Act”), and its predecessor from 1909 (the “1909 Act”),
required copyright registrants to submit “deposit”
copies of their works. Under the 1909 Act, the U.S.
Copyright Office would only accept sheet music, or
equivalent writings using various notation systems,
as deposit copies in connection with musical
compositions. Beginning with the enactment of the
1976 Act, the U.S. Copyright Office accepted musical
recordings – such as vinyl records, tapes, CDs and
digital files – as deposit copies for applications for
the registration of musical compositions.
It is Respondents’ position (and that of the
Ninth Circuit, sitting en banc) that in copyright
infringement actions brought by the owners of
musical compositions registered under the 1909 Act,
the scope of the plaintiff’s rights is limited to the
musical notations on the sheet music submitted to
the U.S. Copyright Office as deposit copies, to the
exclusion of any elements of the musical composition
not found on the deposited sheet music, such as
elements one might hear in a recording of such
composition. It is also their position that for musical
compositions registered following the enactment of

5
the 1976 Act, when the U.S. Copyright Office
accepted musical recordings as deposit copies, the
scope of plaintiff’s rights expanded to the bounds of
whatever was submitted as a deposit copy, including
musical recordings.

Amici disagree, and take the position that
plaintiffs bringing actions for copyright infringement
based on musical compositions registered under the
1909 Act are not limited in their claims to the sheet
music submitted as deposit copies, but rather may
argue that the registered composition includes
additional elements, and is entitled to present
evidence in support of that position.
As amici explain, the Ninth Circuit, sitting en
banc, appears to have failed to follow this Court’s
admonition regarding interpretation of the Copyright
Act: “The Act … should not be read as if they were
written today, for to do so would inevitably distort
[its] intended meaning.” Goldstein v. California, 412
U.S. 546, 564 (1973).
Professors Nimmer explain – in a section of
their treatise cited with approval by Respondents
and the Ninth Circuit sitting en banc – that the
reason the U.S. Copyright Office did not allow
applicants for the registration of musical
compositions to submit recordings as deposit copies
was because – at that time – the law did not
recognize that musical recordings could infringe
musical compositions. According to Nimmer, with
the enactment of the 1976 Act, and the recognition
that musical recordings could infringe musical
compositions, the U.S. Copyright Office changed its

6
policies to allow submission of musical recordings as
deposit copies for musical compositions.
Musical compositions registered before the
U.S. Copyright Office changed its policies have sheet
music on file with the Copyright Office because, and
only because, the Copyright Office was laboring
under a policy based on a legal principle which has
since been abrogated, in favor of the modern view
that musical compositions clearly can, and often do,
embody more than is shown using musical notation
on sheet music. Prohibiting plaintiffs from
introducing evidence beyond the sheet music to
demonstrate the breadth of their musical
compositions, based on the historical policies of the
Copyright Office, has the effect of robbing those
plaintiffs of the full protections granted to them by
the Copyright Act.
To put it another way, Respondents’ position
suggests that if the creators of musical compositions
had not diligently registered their compositions, but
rather waited a number of years until they could file
recordings as deposit copies, they would have been
rewarded for their delay by a grant of broader
protection for their compositions. Such an outcome
would be unfair, and would run contrary to the wellestablished principle under Copyright Law of
rewarding early movers, for example through access
to a wider range of damages if their registrations
precede the alleged infringements.
In this case, and in numerous other cases now
pending around the country, including Griffin, SAS I
and SAS II, courts should recognize that plaintiffs’
pre-1976 Act copyright registrations for musical

7
compositions encompass all elements of those
compositions, whether or not shown on the sheet
music on file at the U.S. Copyright Office, and those
courts should make evidentiary rulings in accordance
with that recognition, without binding plaintiffs’
hands and limiting their ability to make their
infringement arguments, either.

Amici respectfully request that this Court
grant Petitioner’s petition for a writ of certiorari so
that due consideration may be given to this
important issue.

8
ARGUMENT
I.

THIS COURT SHOULD GRANT THE
PETITION FOR CERTIORARI TO HALT
THE GROWING INFLUENCE OF THE
NINTH CIRCUIT’S ERRONEOUS
INTERPRETATION OF THE “DEPOSIT
COPY” REQUIREMENTS

This Court should find that musical
compositions registered prior to the enactment of the
1976 Act may include elements not reflected in the
sheet music on file with the U.S. Copyright Office.
In Goldstein v. California, a case cited with
approval several times by the Ninth Circuit en banc,
this Court noted the following:
To interpret accurately Congress'
intended purpose in passing the 1909
Act and the meaning of the House
Report petitioners cite, we must
remember that our modern
technology differs greatly from that
which existed in 1909. The Act and
the report should not be read as if
they were written today, for to do so
would inevitably distort their
intended meaning; rather, we must
read them against the background of
1909, in which they were written.

Goldstein v. California, 412 U.S. 546, 564 (1973).
This Court went on to explain that as the
Copyright Act was amended and replaced in 1873,
then 1909, and then 1976, the conception of what a

9
“copy” could be, and thus what was entitled to
protection, expanded. This happened, in large part,
because of the development of new technology that
had not even been conceived of under the prior
iteration of the law:
In 1831, Congress first extended
federal copyright protection to
original musical compositions. An
individual who possessed such a
copyright had the exclusive authority
to sell copies of the musical score;
individuals who purchased such a
copy did so for the most part to play
the composition at home on a piano
or other instrument. Between 1831
and 1909, numerous machines were
invented which allowed the
composition to be reproduced
mechanically….It is against this
background that Congress passed the
1909 statute. After pointedly waiting
for the Court's decision in WhiteSmith Music Publishing Co.,
Congress determined that the
copyright statutes should be
amended to insure that composers of
original musical works received
adequate protection to encourage
further artistic and creative effort.

Goldstein v. California, 412 U.S. 546, 564 (1973)
(citing White-Smith Music Pub. Co. v. Apollo Co., 209
U.S. 1 (1908)).

10
The advent of reproduction technology for
music – starting with piano rolls with perforations
and moving into analog and then digital recording
technology – changed and continues to change our
collective conception of what the Copyright Act
should protect.
That the Copyright Office only accepted sheet
music as deposit copies under the 1909 Act is
entirely consistent with the historical framework
Goldstein provides, for just as it had not yet dawned
on us to consider nascent or unborn technology to be
a “copy” of music for protection purposes, the
Copyright Office was not accepting piano rolls as
deposit copies for musical compositions.
Today (and since the enactment of the 1976
Act) it is beyond question that musical recordings are
entitled to copyright protection, and can serve as
deposit copies for registrations of both recordings and
compositions. This is not unlike the en banc’s court’s
observation that “[a]lthough it seems unthinkable
today, musical compositions were not explicitly
subject to copyright in the United States until
1831….” Op. at 16. It is inconsistent and unfair to
creators of earlier works, however, to expand the way
in which we think about musical compositions to
protect works registered once recordings were
accepted as deposit copies, providing greater
protection that those registered before.
The en banc court makes a point of quoting the
1967 edition of the Copyright Compendium,
explaining:

11
At the time that Taurus was
registered, the Copyright Office’s
practice regarding applications to
register unpublished musical
compositions was to consider
“writ[ing] to the applicant, pointing

out that protection extends only to
the material actually deposited, and

suggesting that in his own interest he
develop his manuscript to supply the
missing element.” The inescapable
conclusion is that the scope of the
copyright is limited by the deposit
copy.

Op. at 20 (citing Compendium of Copyright Office
Practices § 2.6.1.II.a (1st ed. 1967) (emphasis
added)).
In the view of amici, rather than supporting
the Ninth Circuit’s conclusion, this quote from the
original Compendium highlights the limitations of
the thinking of the time, and to give it too much
weight runs afoul of this Court’s admonishment from
1973 in Goldstein: “The Act and the report should
not be read as if they were written today, for to do so
would inevitably distort their intended meaning.”
In its opinion, the Ninth Circuit provided this
limited quote from Nimmer on Copyright:
Significantly, the Copyright Office
did not even accept sound recordings
as deposit copies. Indeed, “in order to
claim copyright in a musical work
under the 1909 Act, the work had to

12
be reduced to sheet music or other
manuscript form.”
Op. at 18 (quoting 1 M. Nimmer & D. Nimmer,
Nimmer on Copyright § 2.05[A] (2017)).
The Ninth Circuit, however, however, did not
provide the full context of Professors Nimmers’
explanation, which is found under the heading “The
Diminished Significance of Visible Notation”:
[A] The Diminished Significance of
Visible Notation
A musical work is entitled to
copyright as long as it is “fixed in any
tangible medium of expression,”
regardless of the nature of that
medium. Specifically, it is no longer
necessary, as formerly, that the
medium be visibly intelligible. The
fact that the grooves on a phonograph
record may not be “read” is no bar to
the copyrighting of a musical work by
fixing it in record form. It is, thus,
possible to obtain statutory copyright
over a work merely by recording it,
although the composer is unable or
unwilling to reduce the work to
written form in conventional musical
notation.
This rule represents a sweeping
departure from the 1909 Act; it
constitutes an intentional overruling
of White-Smith Music Co. v. Apollo
Co., in which the Supreme Court held

13
that, in order to constitute a “copy”
within the meaning of then-extant
copyright law, there must be “a
written or printed record in
intelligible notation.” The Court
concluded that an unauthorized
manufacturer and seller of perforated
music on paper (piano rolls) was not
an infringer, as piano rolls failed to
qualify as “copies” under the above
definition, as they lacked a visibly
“intelligible notation.”
1 M. Nimmer & D. Nimmer, Nimmer on Copyright §
2.05[A] (2017) (citing White-Smith Music Pub. Co. v.
Apollo Co., 209 U.S. 1 (1908)) (emphasis added).
The Ninth Circuit’s very limited quotation
from Nimmer robbed the passage of its proper
meaning. What Professors Nimmer were saying is
that the prior policy of the U.S. Copyright Office to
accept only sheet music or equivalent written
notational forms as deposit copies existed only
because of the state of copyright infringement law at
the time, and when infringement law changed, the
policy changed with it. It would be inconsistent and
inequitable to limit the scope of rights of copyright
holders on this basis.
Indeed, Congress was careful to include the
following in the “Transitional and Supplementary
Provisions” of the 1976 Act: “All causes of action that
arose under title 17 before January 1, 1978, shall be
governed by title 17 as it existed when the cause of
action arose.” PL 94–553 (S 22), PL 94–553, October
19, 1976, 90 Stat 2541. They did so to “make[] clear

14
that a cause of action existing on January 1, 1977, is
to be governed by the law under which it arose.”
H.R. Rep. 94-1476, 182, 1976 U.S.C.C.A.N. 5659,
5798. The obvious corollary is that infringement
cases arising in the late 2010s, although involving
copyright registrations granted in the early 1970s,
would enjoy the expanded benefits of the modern
view that musical compositions can embody a wide
range of elements that may or may not be reflected
in sheet music – as Nimmer’s own explanation
demonstrates.
II.

DEPOSIT COPIES IDENTIFY – BUT ARE
NOT IDENTICAL TO – UNDERLYING
COPYRIGHTED WORKS

The Ninth Circuit’s approach (and that of
Respondents when they were before the Ninth
Circuit) continues to dance carefully around the fact
that Nimmer on Copyright said something that
terrifies Respondents, and is inconvenient for the en
banc Court’s conclusion, an acknowledgement by the
copyright luminaries that, prior to 1978, the
Copyright Office only accepted sheet music as deposit
copies for musical compositions, not as a limitation
on the scope of the copyright, but because at that
time that was the only accepted way to “publish” a
composition:
Although White-Smith was decided
the year before enactment of the 1909
Act, its doctrine became a part of that
Act. It was applied, for example, to
phonograph records and to magnetic
tape, neither of which could be said to
embody intelligible notations and

15
hence did not qualify as copies of the
musical works thereby recorded.
Because, under the 1909 Act,
copyright protection required the
placement of notice on copies (and
likewise the deposit of copies), it
followed that a musical work could
not claim copyright unless the notice
and deposit requirements were
satisfied with respect to an object
that constituted a visibly intelligible
notation. Therefore, in order to claim
copyright in a musical work under
the 1909 Act, the work had to be
reduced to sheet music or other
manuscript form. (As an alternative,
however, a musical composition
recorded on a motion picture sound
track could be protected under the
motion picture copyright, even
though not reduced to visibly
intelligible notation.)
1 M. Nimmer & D. Nimmer, Nimmer on Copyright §
2.05[A] (2017) (citing White-Smith Music Pub. Co. v.
Apollo Co., 209 U.S. 1 (1908)) (emphasis added).
We respectfully ask the Court to remember
that musical compositions – like dance and other
forms of art – are by their nature ephemeral.
Musical notation is a way of trying to capture the
ephemeral in the physical, but it is and has always
been limited in its ability to capture every nuance of
the work. Even musical recordings have their
limitations, and the different types of recording
technology have their respective advantages and

16
disadvantages – just ask any staunch proponent of
vinyl records whether they enjoy listening to music
on CD or over the Internet!
Similarly, when it comes to computer
programs, the Copyright Office allows the deposit of
portions of the underlying computer code, both
because of the sheer size of some programs, as well
as the need to maintain secrecy of the code:
Code without Trade Secret Material
If the source code does not contain
trade secrets, submit one copy of the
first twenty-five pages and last
twenty-five pages of the source code
for the specific version you want to
register….
Code with Trade Secret Material
If the source code does contain trade
secrets, you must indicate in writing
to the Office that the code contains
trade secret material. Using one of
the following options, submit a
portion of the code for the specific
version you want to register:
•
One copy of the first ten pages
and last ten pages, blocking out none
of the code;
•
One copy of the first twenty-five
pages and last twenty-five pages,
blocking out the portions of the code
containing trade secret material,

17
provided the blocked out portions are
less than fifty percent of the
deposit;…
Copyright Office, “Circular 61: Copyright
Registration of Computer Programs” (Rev. Sept.
2017).
Deposit copies do not, and were never meant
to be, a limitation on the scope of the copyright they
represent. They serve an identifying function, but do
not take the place of the underlying creation.
III.

SONGWRITERS DO NOT BEHAVE AS THE
NINTH CIRCUIT, RESPONSDENTS AND
THEIR AMICI SUGGEST

The en banc Court wrote that “[t]he purpose of
the deposit is to make a record of the claimed
copyright, provide notice to third parties, and
prevent confusion about the scope of the copyright.”
Op. at 18. Respondents before the Ninth Circuit and
their supporting amici advanced much more strident
versions of that same argument, predicting the dire
consequences that would arise from a determination
that deposit copies do not limit the scope of the
underlying copyrighted compositions, one of them
writing, for example, that “[s]ongwriters know and
assume that copyrights are limited in scope by what
is deposited with the Copyright Office, and if that
rule is changed, it will stifle creation of new works

18
because the deposit copies will no longer be reliable
guides as to the scope of prior copyrights.” 4
This type of thinking suggests that
songwriters not only research what works have been
granted copyrighted registrations previously, but
further research what was deposited with the
Copyright Office in connection with those works, in
order to determine the scope of those registrations.
Even if songwriters behaved in such a way (and
surely they do not), deposit copies are not readily
available, and the retrieval process is neither simple
nor speedy. Songwriters do not pull deposit copies
from the Copyright Office during their creative
process, and thus clarifying the relevance of deposit
copies to the scope of copyrighted compositions will
have no impact whatsoever on, and no prejudice to,
the creative process of songwriters. To suggest
otherwise is simply not credible, and the Court
should not let this irrational argument cloud its
analysis. Moreover, if Respondents suggest that
songwriters knowingly and purposefully limit their
copying to works released before 1978 (when deposit
copies were limited to sheet music by operation of the
Copyright Office), on the mistaken assumption that
the registrations for the copied compositions do not
cover the portions infringed, we would suggest this
Court discourage them from doing so.
IV.

THIS COURT SHOULD ALSO GRANT THE
PETITION IN ORDER TO ADDRESS THE
PROPER STANDARD FOR COPYRIGHT
INFRINGEMENT OF MUSICAL

Brief of Amici Curiae 123 Songwriters, Musicians and
Producers, Along with NSAI and SONA (July 30, 2019) (Ninth
Cir. Dkt. 118-2) at 11.

4

19
COMPOSITIONS BASED ON THE
“SELECTION AND ARRANGEMENT” OF
ELEMENTS

Amici also endorse the Petition for Certiorari

as it relates to the proper understanding of copyright
protection for “selection and arrangement” of
elements. As Petitioner has explained, the en banc
court has improperly narrowed the important
holding of this Court’s holding in Feist.
The en banc court invents a distinction that
simply does not exist in Feist and its progeny. It
appears to be the view of the Ninth Circuit that
“selection and arrangement” requires a level of
sophistication beyond an assemblage of elements, but
the en banc court gives absolutely no clue as to how
to identify what does and does not qualify for such
treatment. Besides being entirely unworkable, that
constrained interpretation finds no support in Feist,
where this Court made clear that unprotectable
common elements are protectible when combined in
an original combination:
Factual compilations, on the other
hand, may possess the requisite
originality. The compilation author
typically chooses which facts to
include, in what order to place them,
and how to arrange the collected data
so that they may be used effectively
by readers. These choices as to
selection and arrangement, so long as
they are made independently by the
compiler and entail a minimal degree
of creativity, are sufficiently original

20
that Congress may protect such
compilations through the copyright
laws. Thus, even a directory that
contains absolutely no protectible
written expression, only facts, meets
the constitutional minimum for
copyright protection if it features an
original selection or arrangement.

Feist Publications, Inc. v. Rural Tel. Serv. Co., 499
U.S. 340, 348 (1991) (citing Nimmer §§ 2.11[D], 3.03;

Denicola, Copyright in Collections of Facts: A Theory
for the Protection of Nonfiction Literary Works, 81
Colum.L.Rev. 516, 523 n. 38 (1981); Harper & Row
Publishers, Inc. v. Nation Enterprises, 471 U.S. 539,
547 (1985)).
This Court held that a directory – speaking
here about a telephone directory – is theoretically
entitled to protection for the choices made when
arraying factual information. The en banc’s call for
some unspecified standard of sophistication in the
selection and arrangement threatens the
fundamental holding of Feist.
As Petitioner has already pointed out in its
Petition, the Ninth Circuit was adhering to the
teachings of Feist through its decision in Swirsky v.
Carey, where it wrote the following:
Music, like software programs and
art objects, is not capable of ready
classification into only five or six
constituent elements; music is
comprised of a large array of
elements, some combination of which

21
is protectable by copyright. For
example, in Three Boys we upheld a
jury finding of substantial similarity
based on the combination of five
otherwise unprotectable elements: (1)
the title hook phrase (including the
lyric, rhythm, and pitch); (2) the
shifted cadence; (3) the instrumental
figures; (4) the verse/chorus
relationship; and (5) the fade ending.
Other courts have taken account of
additional components of musical
compositions, including melody,
harmony, rhythm, pitch, tempo,
phrasing, structure, chord
progressions, and lyrics. In addition,
commentators have opined that
timbre, tone, spatial organization,
consonance, dissonance, accents, note
choice, combinations, interplay of
instruments, basslines, and new
technological sounds can all be
elements of a musical composition.
There is no one magical combination
of these factors that will
automatically substantiate a musical
infringement suit; each allegation of
infringement will be unique. So long
as the plaintiff can demonstrate,
through expert testimony that
addresses some or all of these
elements and supports its
employment of them, that the
similarity was “substantial” and to
“protected elements” of the

22
copyrighted work, the extrinsic test is
satisfied.

Swirsky v. Carey, 376 F.3d 841, 849 (9th Cir. 2004),
as amended on denial of reh'g (Aug. 24, 2004) (citing
Three Boys Music Corp. v. Bolton, 212 F.3d 477, 485
(9th Cir. 2000), additional citations omitted))
(emphasis added).

The en banc Court deviated sharply from the
Swirsky and Feist tradition, however, when it took

the position that Skidmore had not even pled, let
alone evidenced, a selection and arrangement theory,
creating dangerous precedent that cannot be allowed
to persist, because it contradicts the law as expressed
by this Court. Preserving this Court’s broad
enunciation of the “selection and arrangement”
standard is critical, especially when it comes to
preserving and protecting the rights of musical
creators whose work may not be infringed through
wholesale lifting of melody or lyrics, but the more
subtle appropriation of the overall structure or feel of
a piece of music through infringement of the writers’
selection and arrangement of even public domain
elements.
CONCLUSION
This Court should take this opportunity to
state unequivocally that copyright registrations for
musical compositions – especially those registered
prior to January 1, 1978 – can and often do exist
beyond the written page, and that infringement
cases should follow this principle when it comes to
admission of evidence concerning the scope of the

2 3

underlying composition. r e s p e c t f u l l y

request

that the Court grant certiorarito Petitioner.

September 10, 2020
Respectftilly Submitted,

Attorhey for Amici Curiae
The Pullman Group, LLC
and Structured Asset

Sales, LLC

